                                                                                                     	
September 18, 2014

MEMORANDUM FOR:               Mitchell Ross
                              Director, Acquisition and Grants Office, National Oceanic and
                              Atmospheric Administration



FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:                      Audit of Undefinitized Contractual Actions (UCAs)

As a part of our FY 2014 work plan, we are initiating an audit of Undefinitized Contractual
Actions (UCAs).

The primary objective of this audit will be to determine whether contracting officials effectively
managed and executed UCAs. Specifically, we will determine whether contracting officials (1)
properly used and authorized UCAs; (2) timely definitized UCAs; (3) properly priced and
funded UCAs; and (4) negotiated fair and reasonable prices on UCAs.

We have scheduled an entrance conference for September 23, 2014, at which time we will
discuss our objectives in more detail. If you have any questions regarding this audit, please
contact me at (202) 482-7859 or Mark Zabarsky, Audit Director, at (202) 482-3884. We thank
you in advance for your cooperation during this audit.

cc:       Barry Berkowitz, Senior Procurement Executive and Director, Office of Acquisition
          Management
          Mark Daley, Deputy Director for Acquisition Program Management
          Mack Cato, Director, Audit, Internal Control Management Information Office, NOAA




      	
